November 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
RE:

Daniel Cameron, Attorney General of Kentucky v. EMW
Women’s Surgical Center, P.S.C. et al. (20-601)

Unopposed request for extension of time to file response to petition
for writ of certiorari
Dear Mr. Harris:

National Office
125 Broad Street, 18th floor
New York NY 10004
(212) 519-7345
abeck@aclu.org
aclu.org
Andrew Beck
Senior Staff Attorney
Reproductive
Freedom Project

I am counsel of record for Respondents in the above-captioned
case. The petition for a writ of certiorari in this case was filed on
October 30, 2020, and was placed on the Court’s docket on
November 5, 2020. Our response is currently due on December 7,
2020.
On behalf of Respondents, pursuant to Rule 30(4), I am writing to
request a 60-day extension of time to file our response, until
February 5, 2021, because the press of litigation matters over the
next month will interfere with counsel’s ability to prepare an
adequate response to the petition by the current due date of
December 7. These preexisting obligations include a multiple-day
evidentiary hearing beginning on December 1; depositions and
expedited discovery in the weeks preceding that hearing; and
extensive discovery obligations, including depositions, in other
matters from November through January. Additionally, other
counsel for Respondents currently have a number of other preexisting professional and personal commitments. Petitioner does
not oppose this request.
Thank you for your consideration in this matter.
Respectfully,
Andrew D. Beck

Certificate of Service
I certify that on November 12, 2020, a copy of this letter was submitted to the
Clerk of the Supreme Court via electronic filing. Additionally, a copy of this letter was
sent electronically on November 12, 2020, to:
Barry Lee Dunn
Office of the Kentucky Attorney General
700 Capital Avenue
Suite 118
Frankfort, KY 40601
barry.dunn@ky.gov
s/ Andrew D. Beck
Andrew D. Beck

